No.

 

 

dx the
Supreme Court of the United States

Jeffrey J. Walker and
Walker Properties of Woodbury I, LLC,
Petitioners,
vs.

Commissioner of Management and Budget
and the State of Minnesota,
Respondents.

ON PETITION FOR WRIT OF CERTIORARI
TO THE MINNESOTA COURT OF APPEALS

PETITION FOR WRIT OF CERTIORARI
AND APPENDIX

AFFIDAVIT OF SERVICE

Stephen M. West, states that all parties required to be
served have been served and that three true and correct
copies of the Petition for Writ of Certiorari and
Appendix were served on the persons listed below on
the 16th day of October, 2020, by depositing them with
the United States Post Office, with First Class Postage
prepaid.
Kristine K. Nogosek

Assistant Minnesota Attorney General
445 Minnesota Street, Suite 900

St. Paul, MN 55101-2127

(i

Stephen M. West

Subscribed and sworn to before me this 16th day of
October, 2020. Peecccsceese:

be o
eS

Notary Public

      

ODE

  
